No. 19-631

 

 

In THE
Supreme Court of the United States

WILLIAM P. BARR, ATTORNEY GENERAL;
and FEDERAL COMMUNICATIONS COMMISSION,
Petitioners,
Vv.
AMERICAN ASSOCIATION OF POLITICAL
CONSULTANTS, INC., et al,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit

BRIEF FOR AMICUS CURIAE FACEBOOK,
INC. IN SUPPORT OF RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,864 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 1, 2020.

 

Colin Casey [Hogan
Wilson-Epes Printing Co., Inc.
